           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


     MONITORING CONTROLS FOR
      THE HELP AMERICA VOTE
      VERIFICATION PROGRAM

    November 2010   A-03-09-29114




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:      November 5, 2010                                                                   Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Monitoring Controls for the Help America Vote Verification Program
           (A-03-09-29114)


           OBJECTIVE
           Our objective was to determine whether the Social Security Administration (SSA) had
           effective monitoring controls to ensure States were using the Help America Vote
           Verification (HAVV) program appropriately.

           BACKGROUND
           On October 29, 2002, the President signed into law the Help America Vote Act of 2002 1
           (HAVA), which mandates that States verify the information of newly registered voters.
           Section 303 of HAVA requires that each State establish a computerized statewide voter
           registration list and verify voter information with the State’s Motor Vehicle Administration
           (MVA) or SSA. The States are required to verify against the State’s MVA database the
           applicant’s driver’s license number if he or she has a current, valid driver’s license. If
           the applicant does not have a current, valid driver’s license, the States are to verify the
           applicant’s name and date of birth (DOB) as well as the last four digits of the applicant’s
           Social Security number (SSN) with SSA. In addition, SSA is required to report whether
           its records indicate an applicant is deceased.

           To comply with the section 303 requirement for SSA to verify information using the last
           four digits of the SSN, SSA developed HAVV, an online system that allows MVAs to
           submit the required voter applicant information for verification. SSA receives the
           verification request from the American Association of Motor Vehicle Administrators
           (AAMVA), which receives the data from each State’s MVA. 2 HAVV uses the last four
           digits of the SSN to perform the initial match against the Alphident, a database that

           1
            Pub. L. No. 107-252 § 303, 42 U.S.C. § 15483. See also the Social Security Act § 205(r)(8), 42 U.S.C.
           § 405(r)(8).
           2
            AAMVA assists all MVAs and SSA by serving as an electronic information conduit between them.
           Additionally, AAMVA bills each State for their use of the HAVV program.
Page 2 - The Commissioner


allows SSA to search the Agency’s master file of all assigned SSNs based on name and
DOB. The resulting matched record(s) are compared with SSA’s Numident File, which
is the repository of all issued SSNs.3

In Fiscal Years (FY) 2008 and 2009, SSA processed approximately 14.9 million HAVV
verification requests submitted by 41 States, 4 about 7.7 million verification requests in
FY 2008, and approximately 7.2 million verification requests in FY 2009 (see Table 1).

                   Table 1: HAVV Transactions for FYs 2008 and 2009
                   Verification Responses                     FY 2008            FY 2009
         Unprocessed (invalid data provided)                        3,824             3,442
         No-Matches                                             2,366,922         1,887,682
         Matches                                                5,323,408         5,305,530
         Total HAVV Transactions                                7,694,154         7,196,654

Currently the Agency does not have policies and procedures in place to determine
and/or enforce State compliance with the HAVA. We believe SSA is in a unique
position regarding the HAVA, in that the law establishes the Agency as the Federal
entity with the available information to be able to determine State compliance. As such,
we believe SSA should consider implementing policies and procedures that help
promote HAVA compliance among the States. Such policies and procedures could help
ensure the States comply with the terms, conditions, and privacy safeguards
established in HAVV user agreements and include policies and procedures to monitor
compliance with system security requirements.

SCOPE AND METHODOLOGY
For our review, we obtained and reviewed HAVV transactions processed in FYs 2008
and 2009. In addition, we contacted the top 10 States with the highest number of
transactions submitted in FY 2008 to gain a better understanding of their policies and
practices for using SSA’s HAVV program. See Appendix B for additional information
about our scope and methodology.




3
  The Numident is a record of identifying information (such as name, DOB, date of death, mother’s
maiden name, etc.) provided by the applicant on his or her Application for a Social Security Number
(Form SS-5) for an original SSN card and subsequent applications for replacement SSN cards. Each
record is housed in the Numident Master File.
4
  As of July 2009, 46 states and territories signed a Memorandum of Understanding with SSA to use the
HAVV program. It is optional for seven States to use HAVV because these States permit the use of the
full SSN for voter registration.
Page 3 - The Commissioner


RESULTS OF REVIEW
Based on our review, we believe SSA could improve its monitoring controls of the HAVV
program so it can detect anomalies that may indicate States are not using the program
appropriately. While SSA had determined in FY 2008 that at least six States had
submitted an excessive number of verification requests, the Agency was not aware a
significant portion of the verification requests in FYs 2008 and 2009 related to the same
voter information being re-submitted numerous times throughout the year. For these
transactions, States re-submitted the same voter information (last four digits of the SSN,
last name, first name, and DOB) 10 or more times during the FY, and SSA provided
them with the same verification response. 5 In FY 2008, we found that 2.4 million
(32 percent) of the 7.7 million transactions were re-submissions, and in FY 2009, about
1.4 million (20 percent) of the 7.2 million transactions were re-submissions.

SSA staff stated they did not detect the re-submissions because HAVV was not
designed to detect these types of transactions. Further, they believed the States were
responsible for detecting anomalies with their own data. Based on discussions with
officials from the top 10 States who submitted 6.5 million verifications in FY 2008, of
which about 2.3 million (36 percent) related to the same voter information being
submitted 10 or more times, we found the following.

    •   Six States were not aware, and could not explain, why the same voter
        information was re-submitted numerous times.

    •   Four States indicated staff erroneously re-verified voters who changed their voter
        information or verification requests were re-submitted automatically because of
        system errors.

    •   Six States indicated they did not have any controls or safeguards in place to
        detect when voter information was unnecessarily re-submitted through HAVV.

With respect to responses from the States, we believe SSA and the States need to work
together to ensure data submitted through the HAVV program are appropriate.
Therefore, we believe SSA should provide States with reports that reflect each State’s
use of the HAVV program. These reports would be a useful tool for States to detect
anomalies, such as re-submissions of the same voter information. Also, it could help
ensure States are using HAVV as intended, thereby strengthening the integrity of the
HAVV program. In addition, SSA should consider developing a process that would
detect when States submit through HAVV an excessive number of verification requests
using the same voter information.




5
 While there may be legitimate reasons why States re-submitted individual voter information for
verification through HAVV (for example, name or address change), we considered the verification of the
same voter information 10 or more times in the same year to be excessive.
Page 4 - The Commissioner


MONITORING CONTROLS

Our review of HAVV data for FYs 2008 and 2009 showed States had submitted the
same voter information 10 or more times during the FY, which did not appear
reasonable. In FY 2008, we found that 2.4 million (32 percent) of the 7.7 million HAVV
transactions submitted by 25 States related to the same voter data being re-submitted
10 or more times. These transactions related to 61,869 applicants whose information
was submitted 10 to 1,778 times during the year (see Table 2). For example, Ohio
submitted the same voter information 1,778 times during the year for a 77-year-old man
who died in December 2005. The 1,778 submissions were over an 11-day period from
August 29 to September 26, 2008 and ranged from 1 to 278 times in a day. Further, we
found Ohio continued to submit this applicant’s information 13,824 times in FY 2009.

                Table 2: Summary of Excessive Re-Submissions in FY 2008
                   Range of              Number of       Percent of       Total Number of
                Re-Submissions           Individuals    Individuals       Re-Submissions
                     10 to 20                 34,576               56                471,184
                     21 to 30                 10,432               17                261,954
                     31 to 40                  3,727                6                133,820
                     41 to 50                  3,787                6                185,384
                    51 to 1,778                9,347               15              1,383,326
                       Total                  61,869              100              2,435,668

Additionally, we found that 22 States re-submitted the same voter information on the
same day. Specifically, these States submitted the same voter information for
22,059 applicants on the same day with the highest being 342 times on the same day.
For example, Illinois submitted the same voter information 342 times on April 23, 2008
for a 37-year-old man who received a matched response each time.

The excessive number of re-submissions continued to be a problem in FY 2009 even
though the number of re-submissions had decreased slightly. As shown in Table 3,
approximately 1.4 million (20 percent) of the 7.2 million verification requests were
re-submissions. 6 These transactions related to 6,073 applicants whose information was
submitted 10 to 27,969 times during the year by 28 States. We found Ohio submitted
the majority of these re-submitted transactions. It submitted 770,585 (54 percent) of the
1.4 million re-submitted transactions in FY 2009. The second highest was Nevada,
which submitted 329,156 transactions representing 23 percent.




6
    See Appendix D for a list of the States that had an excessive number of re-submissions in FY 2009.
Page 5 - The Commissioner


                Table 3: Summary of Excessive Re-Submissions in FY 2009
                   Range of             Number of          Percent of     Total Number of
                Re-Submissions          Individuals       Individuals     Re-Submissions
                    10 to 20                    1,648               27               20,708
                    21 to 30                      435                7               10,393
                    31 to 40                      240                4                8,675
                    41 to 50                      213                4                9,803
                  51 to 27,969                  3,537               58            1,374,974
                      Total                     6,073              100            1,424,553

While SSA determined in October 2008 that six States submitted an excessive number
of verification requests in FY 2008, it was not aware that about 41 percent of the
verification requests related to the same voter information being submitted 10 or more
times (see Table 4). In October 2008, SSA sent letters to the Secretaries of State for
six States—Nevada, Georgia, Ohio, Alabama, Indiana, and North Carolina—indicating
they had submitted a volume of verification requests that was much greater than one
would expect given that States of comparable or larger populations had submitted a
significantly lower number of verification requests. 7 In total, the six States submitted
approximately 5.3 million, or 69 percent of the 7.7 million verification requests
processed in FY 2008. SSA asked the States to determine why they had such a high
volume of verification requests and to ensure the States were verifying only newly
registered voters who did not have suitable State-issued identification, as required by
HAVA. SSA was not aware that about 2.2 million (41 percent) of the 5.3 million
verification requests were related to the same voter information being submitted 10 or
more times during the FY. For example, Georgia submitted approximately 2 million
verification requests to SSA and we found that about 1.6 million (79 percent) of these
requests related to voters whose information was re-submitted during the year.

                  Table 4: Summary of FY 2008 Transactions for Six States
                           Informed About Excessive Transactions
                                      Total       Excessive                 Percent of
                   States         Transactions Re-Submissions            Re-Submissions
               Georgia               1,956,464       1,552,188                         79
               Alabama               1,037,372           9,625                           1
               Nevada                  744,913         576,365                         77
               Ohio                    741,132          32,746                           4
               Indiana                 415,517             542                         0.1
               North Carolina          395,155           2,066                           1
               Total                 5,290,553       2,173,532                         41

We spoke with SSA staff about the excessive number of re-submissions of voter
information, and they indicated that the HAVV program was not designed to track these
types of transactions. In addition, they did not believe SSA or AAMVA caused this
problem to occur, since not all States that were using the HAVV program experienced
7
    See Appendix C for an example of the letter sent to Georgia.
  Page 6 - The Commissioner


  the problem. Given that the number of transactions submitted 10 or more times during
  the FY were submitted by a few States, they believed those States were responsible for
  detecting these types of anomalies.

  Top 10 States

  We contacted officials from the top 10 States that submitted verification requests in
  FY 2008 to gain a better understanding of their policies and practices for using HAVV.
  In addition, we asked whether they had any controls in place to detect anomalies, such
  as the excessive re-submission of voter information. Six of the top 10 States were
  among those who received a letter from SSA regarding their excessive verification
  requests. The top 10 States accounted for 85 percent (6.5 million) of the total
  transactions submitted for verification in FY 2008 (see Table 5). Furthermore, about
  2.3 million (36 percent) of the 6.5 million transactions related to the same voter data
  being re-submitted 10 or more times. In FY 2009, these States accounted for
  62 percent, or 4.5 million of the total transactions submitted, of which 1.3 million
  (30 percent) were re-submissions of the same voter information.

                Table 5: Top 10 States with Submissions in FYs 2008 and 2009
                                          Excessive                                    Excessive
                     FY 2008           Re-Submissions             FY 2009           Re-Submissions

     States        Transactions    Transactions      Percent   Transactions     Transactions     Percent
    Georgia            1,956,464        1,552,188         79          179,531            6,184           3
    Alabama            1,037,372            9,625        0.9          570,158            1,949         0.3
    Nevada              744,913           576,365         77          419,332          329,156          78
      Ohio              741,132            32,746          4        1,642,267          770,585          47
    Indiana             415,517               542        0.1          305,903              312         0.1
   California           410,777           164,506         40          369,964          198,543          54
 North Carolina         395,155             2,066        0.5          308,620               10         0.0
   New York             337,940             1,575        0.5          374,135            9,882           3
                                                 1
 Pennsylvania           262,054                 0        0.0          126,331               20         0.0
  New Jersey            205,300             6,303          3          199,660           12,347           6
     Total:            6,506,624        2,345,916         36        4,495,901        1,328,988          30
Note 1: While Pennsylvania did not submit voter applicants 10 or more times during FY 2008, we included it
        because it was among the top 10 States that submitted the highest number of transactions. In
        addition, we found that Pennsylvania had 1,008 transactions involving the same voter information
        being re-submitted 4 to 8 times a year. These re-submissions represented about 4 percent of their
        total transactions in FY 2008.

  Based on discussions with officials from the top 10 States, we learned that 6 States
  were unaware they had re-submitted the same voter information through HAVV. These
  officials could not explain how or why newly registered voters were re-submitted during
  the FY. Officials from the remaining four States were aware of the re-submissions of
  voter information, and they provided the following explanations.
Page 7 - The Commissioner


•   Georgia informed us that, in response to the October 2008 letter from SSA, it
    determined the re-submissions of the same voter information occurred because of a
    programming error. The system used to submit HAVV data created a “loop” wherein
    verification requests from nightly batches that were not fully completed by SSA
    remained in a holding queue and were cycled repeatedly through the process as the
    system attempted to complete the entire batch. In response to the letter, they
    corrected the programming error in October 2008. As a result, the number of
    re-submissions decreased significantly from 79 percent in FY 2008 to only 3 percent
    in FY 2009.

•   Nevada confirmed that clerks were erroneously re-verifying voters who had any
    change to their voter information (for example, party affiliation). According to the
    representatives, to resolve this issue, the State changed its policy in August 2009
    and now requires that individuals be re-verified when critical identifying information,
    such as name or SSN, is changed.

•   California explained that the re-submissions of the same voter information occurred
    because of how its system was designed. Similar to Georgia, if records are pending
    in California’s system, these records will continue to be re-submitted to SSA until the
    entire file is processed. At the time of our audit, California had not changed or
    planned to change its system to correct this problem. Consequently, California
    continued to submit the same voter information 10 or more times in FY 2009. The
    percent of these re-submissions increased in FY 2009 to 54 percent from 40 percent
    in FY 2008.

•   Ohio informed us that there was an error with the voter registration system used by
    two counties in the State, which involved deceased voters. However, the error was
    fixed in August 2010 by installing enhanced software to its voter registration system.
    In addition, the State changed its policy to verify only newly registered voter
    information.

Additionally, we found that 6 of the 10 States indicated they did not have controls or
safeguards in place to detect instances where the same voter information was
submitted numerous times through HAVV. For example, officials from North Carolina
stated they did not see a need to have controls or safeguards in place to detect these
types of transactions because, before our audit, they were unaware of the excessive
number of re-submissions of the same voter information. Officials from Alabama stated
they were using an off-the-shelf system to submit their HAVV data, and this system was
not designed to check for the re-submission of the same voter information.

With respect to the responses from the States, we believe SSA and the States need to
work together to ensure the data submitted through the HAVV program are appropriate.
As such, they need to coordinate their efforts to detect anomalies, such as the
excessive re-submissions of voter information, which could indicate that HAVV is not
being used as intended. If SSA had provided the States with reports that reflected each
State’s use of the HAVV program, we believe the States would have been in a better
Page 8 - The Commissioner


position to detect the re-submissions that occurred in FYs 2008 and 2009. We found
that in FY 2010, SSA began sending quarterly reports with a breakout of each State’s
usage to AAMVA, which is the organization that assists SSA and the States by serving
as an electronic information conduit between them. This information was provided to
assist AAMVA with billing the States for their use of HAVV. However, AAMVA was not
sharing these reports with the States because it did not bill based on each State’s
usage of the HAVV program. AAMVA divides the total cost for the HAVV program
equally and bills each State the same amount, regardless of the number of submissions
by each State. We believe SSA needs to determine methods to ensure States receive
usage reports because these reports could be a useful tool for the States to detect
anomalies with the HAVV data, which would strengthen the integrity of the HAVV
program.

CONCLUSION AND RECOMMENDATIONS
SSA needs to improve its monitoring controls of the HAVV program so it can detect
anomalies that may indicate when States are not using the program appropriately. We
found that SSA’s monitoring controls did not detect that States submitted the same
voter information 10 or more times in FYs 2008 and 2009. In FY 2008, the
re-submissions accounted for about 32 percent of the total transactions processed, and
in FY 2009, it accounted for 20 percent of the total transactions processed. Based on
feedback from 4 of the 10 States we reviewed, the excessive re-submissions occurred
because employees erroneously re-verified voters who changed the voter information
and verification requests were re-submitted automatically because of system glitches.
However, the remaining six States reviewed could not explain how or why the
re-submissions had occurred. Therefore, to strengthen the integrity of the HAVV
program, we recommend SSA:

1. Consider methods to provide States with reports that reflect each State’s usage of
   the HAVV program as these reports could help States ensure they are using the
   HAVV program as intended.

2. Consider developing a process that would detect when States submit through HAVV
   an excessive number of verification requests using the same voter information.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with Recommendation 1 but did not agree with Recommendation 2. The
Agency responded that it already tracks data by States, and has identified situations
where States may be submitting excessive verification requests. In addition, the
Agency stated that in response to our first recommendation, it may begin giving States
reports that reflect actual HAVV usage, and, with this information, the States
themselves will be able to investigate any anomalies. Also, the Agency believes the
development of a new process would require significant resources for systems
development, and these costs would have to be passed on to the States, since HAVV is
Page 9 - The Commissioner


non-programmatic activity. As a final note, the Agency believes in light of its current
process, it is unnecessary to develop a process to detect when States are repeatedly
submitting the same data.

The Agency’s comments are included in Appendix E.

OIG RESPONSE
We appreciate SSA’s comments and while we encourage SSA to provide the States
with reports that reflect the actual HAVV usage, we believe these reports alone may not
be useful to States in identifying such anomalies as the re-submission of the same voter
information. For example, of the six States that SSA notified in 2008 about excessive
verification requests, only two States had determined the excessive verification requests
were related to the re-submissions of the same voter information. The remaining four
States were not aware of the re-submission problems until our audit. Finally, we
understand that the development of a new process may require additional system
resources, and the costs for these resources would have to be borne by the States.
However, the States may be willing to absorb these additional costs as several States
indicated they were interested in receiving additional correspondence from SSA
notifying them of possible problems with their data or verification process. Therefore,
SSA should work with the States to develop a process that will help ensure the data
submitted through the HAVV program are appropriate.




                                 Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Example of Letter Sent to the Secretary of State for Georgia
APPENDIX D – States with Excessive Re-Submissions of Voter Information in
             Fiscal Years 2008 and 2009
APPENDIX E – Agency Comments
APPENDIX F– OIG Contacts and Staff Acknowledgments
                                                               Appendix A

Acronyms
AAMVA         American Association of Motor Vehicle Administrators
DOB           Date of Birth
HAVA          Help America Vote Act of 2002
HAVV          Help America Vote Verification
FY            Fiscal Year
MVA           Motor Vehicle Administration
Pub. L. No.   Public Law Number
SSA           Social Security Administration
SSN           Social Security Number
U.S.C         United States Code
                                                                        Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed relevant Federal laws and regulations, as well as relevant Social Security
    Administration (SSA) policies and procedures.

•   Reviewed Office of the Inspector General reports, Government Accountability Office
    reports, and other relevant documents.

•   Obtained and analyzed Help America Vote Verification (HAVV) transactions
    processed in Fiscal Years (FY) 2008 and 2009.

•   Obtained and reviewed FYs 2008 and 2009 management information reports for the
    HAVV program.

•   Obtained and analyzed the matching criteria SSA uses for the HAVV program.

•   Spoke with staff from SSA and the Election Assistance Commission to gain a better
    understanding of the Help America Vote Act of 2002 requirements.

•   Conducted interviews with the following 10 States: Alabama, California, Georgia,
    Indiana, Nevada, New Jersey, New York, North Carolina, Ohio, and Pennsylvania.
    The selection was based on the highest number of transactions submitted in
    FY 2008. We also selected these States because they represented about
    85 percent of the total transactions processed; had a wide range of non-matches;
    had a wide range of re-submissions of the same voter information; and represented
    a majority of the U.S. population.

We conducted our review between November 2009 and July 2010 in Philadelphia,
Pennsylvania. We tested the data obtained for our audit and determined the data to be
sufficiently reliable to meet our audit objective. The entities audited were the Offices of
Earnings, Enumeration and Administrative Systems under the Office of the Deputy
Commissioner for Systems and Financial Policy and Operations under the Office of the
Deputy Commissioner for Budget, Finance and Management. We conducted this
performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objective.
                                      Appendix C

Example of Letter Sent to Secretary of State for
Georgia
                                                                        Appendix D

States with Excessive Re-Submissions of Voter
Information in Fiscal Years 2008 and 2009
In Fiscal Year (FY) 2008, 41 States submitted about 7.7 million transactions to the
Social Security Administration (SSA) for verification through the Help America Vote
Verification (HAVV) program. As shown in Table 1, approximately 2.4 million or
32 percent of these transactions related to same voter information (last four digits of the
Social Security number [SSN], last name, first name, and date of birth [DOB]) being
submitted 10 or more times during the FY and receiving the same verification response
from SSA. We found that 25 of the 41 States had re-submitted the same voter
information, which represented .1 to 88 percent of their transactions for FY 2008.
Further, the re-submissions related to 61,869 applicants whose information was
submitted 10 to 1,778 times during the year.

In FY 2009, 41 States submitted approximately 7.2 million transactions to SSA for
verification through the HAVV program. We found that approximately 1.4 million or
20 percent of these transactions related to same voter information being submitted
10 or more times by 28 States. For the 28 States, the re-submissions represented less
than one-hundredth of a percent up to 98 percent of the total transactions submitted in
FY 2009 (see Table 2). In addition, these re-submitted transactions related to
6,073 applicants whose information was submitted 10 to 27,969 times during the year.




                                           D-1
      Table 1: Summary of States with Excessive Re-Submissions in FY 2008
          Total Transactions                                      Re-Submissions1
                                                                Percent Re-
            State          Transactions      Transactions      Submissions Applicants              Range
 1   Georgia                1,956,464          1,552,188            79        55,115              10 to 139
 2   Nevada                  744,913            576,365             77         2,979              10 to 251
 3   California              410,777            164,506             40          928               10 to 312
 4   Texas                   205,093             86,378             42          717              10 to 1107
 5   Ohio                    741,132             32,746              4          646              10 to 1,778
 6   Alabama                1,037,372             9,625              1          765               10 to 194
 7   New Jersey              205,300              6,303              3          330               10 to 88
 8   North Carolina          395,155              2,066              1          162               10 to 50
 9   New York                337,940              1,575              1           13               11 to 499
10   Oregon                   93,409               623               1           44               10 to 46
11   Indiana                 415,517               542              0.1          43               10 to 26
12   Massachusetts            48,564               474               1           11               10 to 339
13   Illinois                  8,915               422               5           3                10 to 375
14   Montana                  33,760               373               1           21               10 to 57
15   South Dakota             13,404               252               2           3                12 to 128
16   Iowa                     41,505               247               1           17               10 to 30
17   Nebraska                 14,184               243               2           21               10 to 15
18   Missouri                147,766               208              0.1          13               10 to 74
19   New Hampshire              184                162              88           14               10 to 21
20   Wyoming                  22,574               110               1            6               10 to 33
21   Arizona                  58,758               90               0.2          8                10 to 14
22   Utah                     10,003               83                1           2                11 to 72
23   Idaho                    40,170               55               0.1          5                10 to 13
24   Alaska                     742                22                3           2                10 to 12
25   Wisconsin                17,600               10               0.1          1                   10
           Total            7,001,201          2,435,668              35            61,869       10 to 1,778
Note 1: For this report, a re-submission means a State submitted the same voter information (last four digits
        of the SSN, last name, first name, and DOB) 10 or more times during a FY and received the same
        verification response from SSA.




                                                  D-2
      Table 2: Summary of States with Excessive Re-Submissions in FY 2009
          Total Transactions                                        Re-Submissions1
                                                                 Percent Re-
           State          Transactions       Transactions       Submissions Applicants               Range
1    Ohio                  1,642,267            770,585             47           520              10 to 27,969
2    Nevada                 419,322             329,156             78          2,484               10 to 214
3    California             369,964             198,543             54           878                10 to 312
4    Texas                  159,511              54,722             34           214               10 to 8,244
5    New Hampshire           38,132              37,427             98           847                10 to 283
6    New Jersey             199,660              12,347              6           546                10 to 179
7    New York               374,135              9,882               3           138                10 to 643
8    Georgia                179,531              6,184               3           27                229 to 230
9    Alabama                570,158              1,949              0.3          157                 10 to 32
10   Oregon                  68,455              1,484               2           113                 10 to 48
11   Illinois              1,518,166              441                0           39                  10 to 27
12   Massachusetts           57,707               377               0.7           3                 13 to 345
13   Indiana                305,903               312               0.1          19                  10 to 48
14   Missouri               142,623               181               0.1          11                  10 to 38
15   Idaho                   44,348               173               0.4          11                  10 to 56
16   Nebraska                14,716               154                1           14                  10 to 13
17   Minnesota               33,324               148               0.4          12                  10 to 17
18   Wyoming                 16,197                95               0.6           8                  10 to 16
19   Montana                 21,268                94               0.4           8                  10 to 16
20   Iowa                    31,180                65               0.2           5                  10 to 17
21   Arizona                 30,446                42               0.1           4                  10 to 11
22   Wisconsin              134,414                39                0            3                  10 to 16
23   Alaska                  1,132                 36                3            2                  16 to 20
24   Arkansas                25,096                34               0.1           3                  10 to 12
25   Utah                    12,528                28               0.2           2                  13 to 15
26   Colorado                32,753                25               0.1           2                  10 to 15
27   Pennsylvania           126,331                20                0            2                    10
28   North Carolina         308,620                10                0            1                    10
      Total:               6,877,887           1,424,553            21          6,073             10 to 27,969
Note 1: For this report, a re-submission means a State submitted the same voter information (last four digits
        of the SSN, last name, first name, and DOB) 10 or more times during a FY and received the same
        verification response from SSA.




                                                  D-3
                  Appendix E

Agency Comments
                                         SOCIAL SECURITY
MEMORANDUM


Date:      October 25, 2010                                                      Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Executive Counselor to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, “Monitoring Controls for the Help America
           Vote Verification Program” (A-03-09-29114)--INFORMATION


           Thank you for the opportunity to review the draft report. Please see our attached comments

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Rebecca Tothero, Acting Director, Audit Management and Liaison Staff, at (410) 966-6975.

           Attachment




                                                        E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “MONITORING CONTROLS FOR THE HELP AMERICA VOTE
VERIFICATION PROGRAM” (A-03-09-29114)

Thank you for the opportunity to review the subject report. We offer the following responses to
your recommendations.

Recommendation 1

Consider methods to provide States with reports that reflect each State’s usage of the Help
America Vote Verification (HAVV) program as these reports could help States ensure they are
using the HAVV program as intended.

Response

We agree. We will explore methods to provide States with reports that reflect each State’s usage
of the HAVV program.

Recommendation 2

Consider developing a process that would detect when States submit through HAVV an
excessive number of verification requests using the same voter information.

Response

We disagree. We already track data by State and identify situations where States may be
submitting excessive verification requests. You acknowledge this on page 3 of your draft report
where you state, “While SSA had determined in FY 2008 that at least six States had submitted an
excessive number of verification requests…” We will continue this process and alert States
whenever appropriate. In addition, and as noted above, we may also begin giving the States
reports that reflect actual HAVV usage. With this information, the States themselves will be
able to investigate any anomalies.

You suggest we do more in this area and recommend we develop a process to detect when States
are repeatedly submitting the same data. We feel this is unnecessary. If we adopted your idea,
we would have to expend significant resources for systems development. We would then have to
pass related costs onto the States because HAVV is a non-programmatic activity. As such, we
cannot fund it using the Social Security trust funds. This option would likely be an undesirable
option from the States’ perspective, and as previously stated, we feel it is unnecessary in light of
our existing processes.




                                               E-2
                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Cylinda McCloud-Keal, Director, Philadelphia Audit Division

   Carol Madonna, Audit Manager

Acknowledgments

In addition to those named above:

   Virginia Harada, Senior Auditor
   Michael Brooks, Auditor
   Atlanta Audit Division
   Birmingham Audit Division
   Chicago Audit Division
   Falls Church Audit Division
   New York Audit Division
   San Francisco Audit Division

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-03-09-29114.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
